           INSPECTOR GENERAL, DOD, OVERSIGHT
        OF THE NAVAL AUDIT SERVICE AUDIT OF THE
             FY 2000 DEPARTMENT OF THE NAVY
          GENERAL FUND FINANCIAL STATEMENTS


Report No. D-2001-056               February 21, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronym
NAS                   Naval Audit Service
                        Office of the Inspector General, DoD
Report No. D-2001-056                                                  February 21, 2001
   (Project No. D2000FC-0283.001)

           Inspector General, DoD, Oversight of the Naval Audit
           Service Audit of the FY 2000 Department of the Navy
                    General Fund Financial Statements

                                    Executive Summary

Introduction. Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994,” October 13, 1994, requires DoD to prepare annual audited
Department of the Navy General Fund financial statements. Office of Management and
Budget Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements,”
October 16, 2000, establishes the minimum requirements for these financial statements.
This Bulletin requires the Inspector General, DoD, to express an opinion on the DoD
financial statements and to report on the adequacy of internal controls and compliance
with laws and regulations. We delegated the audit of the FY 2000 Department of the
Navy General Fund financial statements to the Naval Audit Service. This is the third in
a series of reports on our audit of the FY 2000 Department of the Navy General Fund
financial statements. This report provides the results of our oversight of the Naval
Audit Service work. Our first report discusses the journal entries made to support the
departmental reporting for the Marine Corps and our second report discusses the
preparation of financial reports for Marine Corps appropriations.

Objective. Our objectives were to oversee the Naval Audit Service audit of the
FY 2000 Department of the Navy General Fund financial statements and to determine
the reliability and effectiveness of processes and procedures used to prepare those
statements. This report focuses on the oversight objective. The objective for
determining the reliability and effectiveness of processes and procedures used to
prepare financial statements is addressed in our first two audit reports for this project.
A subsequent audit report will further discuss this objective and our review of the
management control program for departmental and financial statement reporting. See
Appendix A for a discussion of the audit process.

Results. The Naval Audit Service report, “Fiscal Year 2000 Department of the Navy
General Fund Principal Statements,” February 7, 2001, states that the auditors were
unable to express an opinion on the FY 2000 Department of the Navy General Fund
financial statements. We concur with the Naval Audit Service disclaimer of opinion;
our endorsement of that disclaimer is Exhibit 1. Excerpts from the Naval Audit Service
audit report are included as Exhibit 2 and provide the reasons for the disclaimer of
opinion and identify the material weaknesses and reportable conditions associated with
the internal controls and compliance with laws and regulations. Naval Audit Service
reports can be accessed on the Internet at http://www.hq.navy.mil/navalaudit. The
FY 2000 Department of the Navy General Fund financial statements can be accessed on
the Internet at www.dtic.mil/comptroller.
Table of Contents

Executive Summary                                                    i


Appendixes
     A. Audit Process
         Scope and Methodology                                       1
         Prior Coverage                                              2
     B. Report Distribution                                          3

Exhibits
     1. Inspector General, DoD, Endorsement Memorandum

     2. Excerpts from Naval Audit Service Report “Fiscal Year 2000
        Department of the Navy General Fund Principal Statements”
Appendix A. Audit Process

Scope and Methodology
    Audit Work Performed. To fulfill our responsibilities under Public
    Law 101-576, the “Chief Financial Officers Act of 1990,” as amended by
    Public Law 101-356, the “Federal Financial Management Act of 1994,” and
    Office of Management and Budget Bulletin No. 01-02, “Audit Requirements for
    Federal Financial Statements,” dated October 16, 2000, we performed oversight
    of the independent audit conducted by the Naval Audit Service (NAS) of the
    FY 2000 Department of the Navy General Fund financial statements. We
    reviewed the NAS audit approach and monitored audit progress at key points.

    Reviewing the NAS Audit Approach. We used the “Federal Financial
    Statement Audit Manual,” January 1993, issued by the President’s Council on
    Integrity and Efficiency, and the “Financial Audit Manual,” December 12,
    1997, issued by the General Accounting Office, as the criteria for reviewing the
    NAS audit approach. We reviewed the notification letter, formulation of
    strategy, entity profile, general risk analysis, cycle memorandums, and audit
    programs. In addition, we participated in NAS meetings on the Department of
    the Navy General Fund financial statements. The meetings covered the NAS
    planning and formulation of audit strategy and included presentations on issues
    that developed during the NAS work.

    Monitoring Audit Progress. Through the DoD Financial Statement Audit
    Executive Steering Committee, and an integrated line-item oversight effort, we
    provided a forum for a centrally managed exchange of guidance and
    information. We reviewed and commented on the NAS audit opinion report,
    which included discussions of issues on internal controls and compliance with
    laws and regulations. We reviewed key workpapers and summaries of NAS
    audit results and conclusions.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goal, and performance measure.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-02)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)




                                        1
           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                       −DoD-2.5.2)
           on financial statements. (01−

    DoD Functional Area Reform Objectives and Goals. Most major DoD
    functional areas have also established performance improvement reform
    objectives and goals. This report pertains to achievement of the following
    functional area objective and goal.

           Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers’ Financial
           Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Financial Management high-risk area.

    Audit Type, Period, and Standards. We performed this financial statement
    audit from September 7, 2000, through February 7, 2001, in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We did not use computer-
    processed data to conduct our oversight of the Naval Audit Service audit of the
    FY 2000 Department of the Navy General Fund financial statements.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in the DoD audit community. Further details are available on
    request.


Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports.




                                        2
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform

                                           3
Exhibit 1. Inspector General, DoD,
           Endorsement Memorandum
Exhibit 2. Excerpts from Naval Audit
           Service Report, “FY 2000
           Department of the Navy
           General Fund Principal
           Statements”
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.



F. Jay Lane
Salvatore D. Guli
Marvin L. Peek
Linda A. Pierce
Edward A. Blair
David J. Ramseyer
Kristie J. Ebert
